Supreme Court, U.S.
FILED

JAN 2 2 2021

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-847

Billie Renee Frances Lillian Powersv.The Bank of New York Mellon, et al.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Commonwealth Land Title Company

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Digitally signed by Kevin S. Sinclair
Date: 2021.01.22 11:23:45 -mow

Kevin S. Sinclair

1/22/2021

(Type or print) Name

Kevin S. Sinclair
El Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Sinclair Braun LLP

Address

16501 Ventura Boulevard, Suite 400

City & State
Phone

Encino, CA

(213) 429-6100

Zip
Email

91436

ksinclair@sinclairbraun.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Wendy Alison Nora, Access Legal Services, LLC

RECEIVED
JAN 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

No. 20-847

tbe bupretne court of tbe

6tateo

BILLIE RENE FRANCES LILLIAN POWERS,
Petitioner,
v.
THE BANK OF NEW YORK MELLON, FKA Bank
of New York, as Trustee, on behalf of the holders of
the alternative Loan Trust 2007-HY9 Mortgage
Pass Through Certificates Series 2007-HY9;
SELECT PORTFOLIO SERVICING, INC.;
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.; JON SECRIST; NICHOLE
CLAVADETSCHER; COMMONWEALTH LAND
TITLE COMPANY; BANK OF AMERICA, NA;
DOES, 1-10,
Respondents

Certificate of Service

I, Kevin S. Sinclair, counsel for Respondent Commonwealth Land Title
Company, hereby certify that on this 22nd day of January, 2022, I caused
Commonwealth Land Title Company's Waiver of Response to Petition for a
Writ of Certiorari to be served by overnight delivery on the following counsel:
ACCESS LEGAL SERVICES, LLC
Wendy Alison Nora
310 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415
Counsel for Petitioner Billie Renee Frances Lillian Powers
KUTAK ROCK LLP
Attorney Steven M. Dailey
Attorney Rebecca L. Wilson
5 Park Plaza, Suite 1500
Irvine, California 92614-8595
Counsel for Respondent MORTGAGE ELECTRONIC REGISTRATION SYSTEMS,
INC.
Counsel for Respondent THE BANK OF NEW YORK MELLON, FKA Bank of New
York, as Trustee, on behalf of the holders of the alternative Loan Trust 2007-HY9

Mortgage Pass Through Certificates Series 2007-HY9, a series of certificates issued
by Real Estate Mortgage Investment Conduit (REMIC) Trust
SEVERSON & WERSON, APC
Attorney Kerry W. Franich
Attorney Robert James Gandy
Attorney Jan T. Chilton
19100 Von Karman Avenue, Suite 700
Irvine, California 92612
Counsel for Respondent BANK OF AMERICA, NA
Counsel for Respondent JON SECRIST
Counsel for Respondent NICHOLE CLAVADETSCHER
I further certify that all parties required to be served have been served.

/s/ Kevin S. Sinclair

Kevin S. Sinclair
SINCLAIR BRAUN LLP
16501 Ventura Blvd, Suite 400
Encino, California 91436
Telephone: (213) 429-6100
Facsimile: (213) 429-6101
ksinclair@sinclairbraun.com
Counsel for Respondent
Commonwealth Land Title Company

